No. 19-1049
INTHE

teupretne ~ourt of tfJe mlntteb tetateS'
BOLIVARIAN REPUBLIC OF VENEZUELA AND
PETROLEOS DE VENEZUELA, S.A.,

Petitioners,
v.

CRYSTALLEX INTERNATIONAL CORPORATION,

Respondent.

CERTIFICATE OF COMPLIANCE
I hereby certify tJmt I am a member in good standing of the bar of this Court and

that the Brief in Opposition contains 8,725 words and complies with the word limitation
established by Rule 33.l(g)(ii) of the Rules of this Court.
Dated: April 13, 2020

~
;;3Matthew S. Rozen

